U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Kevin R. George v. Denis R. McDonough, No. 21-234
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 13,
2021. The government’s response is now due, after one extension, on October 18, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 17, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0234
GEORGE, KEVIN R.
DENIS R. MCDONOUGH, SEC. OF VA

MELANIE LYNN BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8483
MBOSTWICK@ORRICK.COM
JEREMY C. DOERRE
TILLMAN WRIGHT PLLC
3440 TORINGDON WAY
SUITE 310
CHARLOTTE, NC 28277
704-248-4883
JDOERRE@TI-LAW.COM
MICHAEL E. JOFFRE
STERNE, KESSLER, GOLDSTEIN & FOX PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202-371-2600
MJOFFRE@STERNEKESSLER.COM
WILLIAM H. MILLIKEN
STERNE, KESSLER, GOLDSTEIN & FOX
P.L.L.C.
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202-772-8854
WMILLIKEN@STERNEKESSLER.COM

